    REVIEW OF PEGASYS ACCOUNT
BALANCE AND TRANSACTION ANALYSIS –
    UNFILLED CUSTOMER ORDERS
 REPORT NUMBER A060169/B/7/F07006

          JANUARY 3, 2007
Date:      January 3, 2007
Reply to
Attn of:   Regional Inspector General for Auditing (JA-7)

Subject:   Review of Pegasys Account
           Balance and Transaction Analysis –
           Unfilled Customer Orders
           Report Number A060169/B/7/F07006

To:        Kathleen Turco
           Chief Financial Officer (B)
           James A. Williams
           Commissioner, Federal Acquisition Service (Q)

           This report presents the results of our survey of the Review of Pegasys Account
           Balance and Transaction Analysis – Unfilled Customer Orders (UFCO). This review
           was included in the Office of Inspector General’s Fiscal Year (FY) 2006 Annual Audit
           Plan.

           Background

           Under OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements, the
           General Services Administration (GSA) is required to submit interim unaudited financial
           statements to the Office of Management and Budget’s Office of Federal Financial
           Management on a quarterly basis. One of the required quarterly financial statements is
           the Statement of Budgetary Resources (SBR), which provides information about how
           budgetary resources were made available as well as their status at the end of the
           reporting period. In the Combined SBR for the 6-month period ended March 31, 2006,
           GSA’s reported Change in UFCO was a decrease of $735 million for the Information
           Technology Fund (ITF) 1 .

           In the interim audit testing of GSA’s FY 2005 Financial Statements, Pricewaterhouse
           Coopers (PwC), an independent public accounting firm, identified control weaknesses
           and accounting errors in UFCO. In response to PwC’s interim assessment, GSA
           management developed a remediation plan that included selecting and reviewing a
           statistical sample of transactions as of August 31, 2005, to identify incorrect items and
           project the error rate to the September 30, 2005, ITF UFCO account balance. Based on


           1
            The Change in UFCO was comprised of a $719.5 million decrease in UFCO Without Advances (General Ledger Account 4221)
           and a $15.3 million decrease in UFCO With Advances (General Ledger Account 4222). Each was calculated by taking the March
           2006 adjusted general ledger balance and subtracting the beginning FY 2006 adjusted general ledger balance.
 the extrapolation of the sampling error rate to the UFCO account balance, management
recorded a worksheet adjustment to reduce the year-end UFCO balance for the ITF.

PwC was unable to satisfy itself as to the reported amounts related to UFCO reported
by the ITF as of September 30, 2004. In addition, in FY 2005, management identified
material UFCO balances of the ITF that were invalid or cancelled. As such, PwC did
not render an opinion on the FY 2004 and 2005 SBR for the ITF. Further, PwC reported
a material weakness concerning inadequate controls over monitoring, accounting, and
reporting of agency budgetary transactions. In response to PwC’s recommendations,
GSA developed a comprehensive action plan to address the material weakness.

Objectives, Scope, and Methodology

The objectives of our survey were to answer the following:
      Were adjustments made to the General Ledger (GL) accounts used to
      calculate the Change in Unfilled Customer Orders (UFCO) as reported in
      the financial statements? If so, what adjustments were made, and has
      management placed controls over the adjustment process?

We limited our survey work to the ITF’s Change in UFCO. We further limited our survey
to the Change in UFCO Without Advances and to the applicable March 2006 worksheet
adjustment because the Change in UFCO Without Advances represented
approximately $719 million, or 97 percent, of the reported $735 million decrease in
UFCO.

To accomplish the survey objectives, we:
   • Reviewed the Combined SBR for the 6-month period ended March 31, 2006;
   • Obtained an understanding of and reviewed the Change in UFCO calculation;
   • Selected the Change in UFCO Without Advances and $384.6 million worksheet
      adjustment for March 2006;
   • Reconciled the UFCO Without Advances worksheet adjustment to supporting
      summary documentation;
   • Reviewed PwC work papers pertaining to: (1) FTS budgetary cycles related to
      UFCO; (2) substantive testing of internal controls over UFCO; and (3) results of
      the UFCO testing;
   • Reviewed GSA’s action plan in response to the FY 2005 reported material
      weakness; and
   • Interviewed Office of Chief Financial Officer personnel to gain an understanding
      of the worksheet adjustment to the UFCO Without Advances.

The survey was conducted from April through October 2006 in accordance with
generally accepted government auditing standards.




                                        2
                         REVIEW OF PEGASYS ACCOUNT
                     BALANCE AND TRANSACTION ANALYSIS –
                         UNFILLED CUSTOMER ORDERS
                      REPORT NUMBER A060169/B/7/F07006


                              REPORT DISTRIBUTION

                                                                                Copies

Chief Financial Officer (B)                                                         3

Commissioner, Federal Acquisition Service (Q)                                       3

Audit Follow Up and Evaluation Branch (BECA)                                        1

Assistant Inspector General for Auditing (JA & JAO)                                 2

Deputy Assistant Inspector General for Financial and Administrative Audits (JA-F)   1

Special Agent in Charge, Southern Regional Investigations Office (JI-7)             1




                                      A-1
